Oversight Review                May 5, 2008


  Report of Actions on Incurred Cost Audits
     by the Supervisor of Shipbuilding,
 Conversion and Repair Groton, Connecticut


         Report No. D-2008-6-005
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant Inspector
  General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax
  (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-9808. Ideas and requests can also be mailed to:


                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1017)
                                 Arlington, VA 22202-4704




Acronyms

CAFU                    Contract Audit Follow-up
CFY                     Contractor Fiscal Year
DCAA                    Defense contract Audit Agency
FAR                     Federal Acquisition Regulation
IG                      Inspector General
MOA                     Memorandum of Agreement
SUPSHIP                 Supervisor of Shipbuilding, Conversion, and Repair
Table of Contents
Results in Brief                                                             i

Introduction

   Objective                                                                 1
   Background                                                                1
   DoD Directive                                                             1

Findings

   A. Premature Establishment of Indirect Cost Rates                         2
         Memorandum of Agreement                                             2
         No Legal Review or Procedures                                       2
         Actions on Costs in Memorandum of Agreement                         3
         Establishment of Final Indirect Cost Rates                          3
         Adjustment of Future Indirect Cost Rates                            3
         Impact on the Government                                            4
         Management Comments and Department of Defense Inspector General
            Response to Finding                                              4
         Recommendation A, Management Comments and Department of Defense
            Inspector General Response                                       6

   B. Improper Use of Prior Year Sustention Rates                         8
         Applicable Criteria                                              8
         Use of Prior Year Sustention Rates                               8
         Assessment of Penalties                                          9
         Management Comments and Department of Defense Inspector General
            Response to Finding                                           9
         Recommendation B, Management Comments and Department of Defense
            Inspector General Response                                   10

   C. Failure to Obtain the Auditor’s Opinion on Consultant Costs           11
          Applicable Criteria                                               11
          DCAA-Questioned Consultant Costs                                  11
          Contracting Officer’s Action                                      11
          Management Comments and Department of Defense Inspector General
              Response to Finding                                           12
          Recommendation C, Management Comments and Department of Defense
              Inspector General Response                                    12

   D. Inadequate Consideration of Unallocable Costs                         13
         Applicable Criteria                                                13
         DCAA-Questioned Costs                                              13
         Contracting Officer’s Action                                       14
Table of Contents (Con’t)
          Management Comments and Department of Defense Inspector General
             Response to Finding                                          14
          Recommendation D, Management Comments and Department of Defense
             Inspector General Response                                   15

  E. No Action Taken on Questioned Direct Costs                           15
        Applicable Criteria                                               15
        DCAA-Questioned Costs                                             16
        Contracting Officer’s Action                                      16
        Management Comments and Department of Defense Inspector General
           Response to Finding                                            16
        Recommendation E, Management Comments and Department of Defense
           Inspector General Response                                     17

  F. Accuracy of Reported Data                                            18
        Applicable Criteria                                               18
        Data Errors                                                       18
        Prior Review                                                      19
        Recommendation F, Management Comments and Department of Defense
            Inspector General Response                                    19

  G. Performance Standards and Controls for Contract Audit Follow-Up      20
        Performance Standards and Appraisals                              20
        Internal Controls                                                 20
        Prior Review                                                      21
        Management Comments and Department of Defense Inspector General
            Response to Finding                                           21
        Recommendation G, Management Comments and Department of Defense
            Inspector General Response                                    22

Appendixes

  A.   Scope and Methodology                                              24
  B.   Inaccuracies With Reported Questioned Costs                        25
  C.   Inaccuracies With Reported Sustained Questioned Costs              26
  D.   Inaccuracies With Reported Dates                                   27
  E.   Incorrect Reporting of Status                                      28
  F.   Report Distribution                                                29

Management Comments
    Department of the Navy Comments                                       31
                  Actions on Incurred Cost Audits by the
                Supervisor of Shipbuilding, Conversion and
                       Repair Groton, Connecticut

Results In Brief                                      What We Recommended
                                                      SUPSHIP Groton should discontinue
What We Did                                           establishing final indirect cost rates without
                                                      settling the audit findings, and using prior
We evaluated the actions that contracting
                                                      year sustention rates to negotiate questioned
officials at the Supervisor of Shipbuilding,
                                                      costs. The contracting officer should seek
Conversion and Repair (SUPSHIP) Groton,
                                                      auditor advice during negotiations, ensure
Connecticut took on reportable incurred cost
                                                      that all findings are addressed, and recoup
audits conducted by the Defense Contract
                                                      the questioned direct costs.         SUPSHIP
Audit Agency (DCAA) for the semiannual
                                                      Groton needs to improve the accuracy of its
reporting periods September 30, 2004,
                                                      contract audit follow-up data, hold
through March 31, 2007.
                                                      contracting officers accountable for their
                                                      actions, and perform periodic reviews.
What We Found
                                                      Management Comments
The SUPSHIP Groton contracting officer
violated Federal Acquisition Regulation and           Of the 7 findings, the Navy concurred with 2
DoD Directive 7640.2 by prematurely                   and non-concurred with 5. Of the 17
establishing final indirect cost rates for 1997       recommendations, the Navy concurred with
through 2001 without taking final action on           7, partially concurred with 3, and non-
$94 million in questioned and unresolved              concurred with 7. The Navy said the actions
costs. The contracting officer improperly             on $94 million in questioned and unresolved
used prior year sustention rates to negotiate         costs benefited the Government and
$1.6 million in DCAA-questioned costs,                complied with applicable regulations. The
allowed $2.1 million in questioned                    contracting officer did not rely solely on
consultant costs without obtaining the                prior year sustention rates, and obtained
advice of the auditor, and reimbursed                 audit advice on the questioned consultant
$1.2 million in costs questioned as                   costs. The Navy said that it could not
unallocable without adequate justification.           reopen negotiations for the unallocable
SUPSHIP Groton also failed to take action             questioned costs, and that DCAA revised its
on $2.4 million in DCAA-questioned direct             opinion on the questioned direct costs.
costs. SUPSHIP Groton does not maintain               SUPSHIP Groton corrected most of the data
accurate data on the status of actions on             errors and will place more management
incurred cost audits, hold contracting                focus on the contract audit follow-up
officers accountable for their actions on             system.
contract audit reports or have sufficient
management focus on the internal controls              United Stated Department of Department of Defense Office of Inspector General
                                                                           Project No. D2005-DIP0AI-0280.000
over the contract audit follow-up system.                                        Report No. D-2008-6-005
                                                                                      April 30, 2008




                                                  i
                                   Introduction
Objective
Our objective was to review the actions that the Supervisor of Shipbuilding, Conversion and
Repair (SUPSHIP) Groton, Connecticut took to resolve and disposition incurred cost audit
reports included in its semiannual reporting for periods ending September 30, 2004 through
March 31, 2007. See Appendix A for details regarding our scope and methodology and prior
coverage.

Background
SUPSHIP Groton. SUPSHIP Groton is one of four SUPSHIPs under the Naval Sea Systems
Command involved in procuring ships and shipboard weapons and combat systems. SUPSHIP
Groton acts as the liaison between the Department of the Navy and the General Dynamics
Electric Boat (GDEB) who builds and repairs nuclear powered submarines. SUPSHIP Groton is
responsible for administering contracts, outfitting the ships, and assuring that quality and
production schedule requirements are met. SUPSHIP Groton employs approximately 200
civilians and 27 military personnel.

Defense Contract Audit Agency. DCAA performs contract audits and provides accounting
and financial advisory services to all DoD Components. DCAA issues audit reports resulting
from several types of audits, such as audits of Government contractor-incurred costs. DCAA
performs incurred cost audits to determine whether the costs incurred by a contractor and
charged on Government contracts are allowable, allocable, and reasonable based on applicable
criteria in the Federal Acquisition Regulation (FAR), Defense Federal Acquisition Regulation
Supplement, and Cost Accounting Standards. DCAA issued eight incurred cost audits reports to
SUPSHIP Groton covering contractor fiscal years (CFY) 1997 through 2004.

DoD Directive
DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,” February 12, 1988,
prescribes the responsibilities, reporting requirements, and follow-up procedures on contract
audits. Reportable contract audits include most contract audits with findings and
recommendations, including incurred cost audits. Paragraph 6.5 of the Directive requires the
contracting officer to prepare a post-negotiation memorandum covering the disposition of all
significant audit report findings, including the underlying rationale for such dispositions. The
DoD Inspector General (IG) evaluates the effectiveness of contract audit follow-up (CAFU)
systems implemented at each DoD Component for compliance with this Directive.

DoD Directive 7640.2 also requires all DoD Components to submit semiannual status reports on
reportable contract audits to the DoD IG. The DoD IG includes a summary of the status reports
for all DoD Components in its Semiannual Report to Congress.



                                                1
                                              Findings
A. Premature Establishment of Indirect Cost Rates
             SUPSHIP Groton prematurely established final indirect cost rates covering CFYs
             1997 through 2001 without taking final action on $94 million in DCAA-unresolved
             and questioned costs. This practice is not consistent with the Federal Acquisition
             Regulation (FAR), DoD Directive 7640.2, and generally accepted accounting
             principles. It also circumvented the primary responsibility of the SUPSHIP Groton
             contracting officer, which is to negotiate a fair and reasonable price on behalf of the
             Government. SUPSHIP Groton needs to promptly negotiate a settlement with the
             contractor for the remaining DCAA-unresolved and questioned costs.

             Memorandum of Agreement. In a September 30, 2004 memorandum of agreement
             (MOA) between SUPSHIP Groton and GDEB, the contracting officer accepted $94
             million in DCAA unresolved and questioned indirect costs for CFYs 1997 through
             2001 but reserved the right to negotiate the costs at a later, undetermined date.
             SUPSHIP Groton allowed these costs in the final indirect cost rates for CFYs 1997
             through 2001. Although the MOA reserves the right to negotiate later, any costs that
             the contracting officer disallows from negotiations will result in an adjustment to the
             proposed indirect cost rates for the next open (unsettled) year, not in the year the
             contractor incurred, reported, and claimed the costs.

             Of the $94 million in costs addressed in the agreement, about $78 million are costs
             that DCAA reported as unresolved 1 and $16 million are costs that DCAA reported as
             questioned. The unresolved costs include corporate costs that the cognizant DCAA
             office had not yet audited at the time of report issuance. The questioned costs include
             costs that DCAA reported as unallowable or unreasonable, such as executive
             compensation, and service-center costs. SUPSHIP Groton elected not to wait for the
             audit results of the corporate costs or negotiate the questioned costs before
             establishing the final indirect cost rates for CFYs 1997 through 2001.

             No Legal Review or Procedures. The SUPSHIP Groton contracting officer did not
             request a legal review of the agreement prior to executing it with the contractor. The
             contracting officer should have requested a legal review because of the unique nature
             of the agreement, the significance of the costs involved, and the potential for
             establishing precedence on future indirect cost rates. Neither the Department of the
             Navy nor SUPSHIP Groton has procedures governing the use of MOAs for


1
  DCAA classifies costs as “unresolved” when its auditors do not receive the results of assist audits in time for
incorporation into the audit report. An assist audit involves one DCAA office performing an audit of selected costs
(for example, corporate, home office, subcontract, or intracompany costs) at the request of another DCAA office.


                                                         2
establishing final indirect cost rates before taking final action on DCAA-unresolved
and questioned costs.

Actions on Costs in the Memorandum of Agreement. Of the $94 million in costs
covered under the MOA, the SUPSHIP Groton contracting officer has only taken
final action on $4 million. Although SUPSHIP Groton can take final action on an
additional $16 million, it has no time-phased action plan for completing the actions.
The remaining $74 million includes corporate costs that cannot be settled until
SUPSHIP Groton receives the results of negotiations from the Defense Contract
Management Agency, Defense Corporate Executive.

Establishment of Final Indirect Cost Rates. The SUPSHIP Groton practice of
establishing final indirect cost rates without negotiating all of the questioned costs
violates the FAR 42.705-1, Contracting Officer Determination Procedure, and DoD
Directive 7640.2.

FAR 42.705-1(b)(4) states that the contracting officer shall not resolve any
questioned costs (including unresolved costs) until obtaining adequate documentation
on the costs and the contract auditor’s opinion on the allowability of the costs.
SUPSHIP Groton allowed the costs without obtaining adequate documentation
regarding their allowability.

FAR 42.705-1(b)(5)(iii)(A) requires that the contracting officer document on a
post-negotiation memorandum the disposition of significant matters from the
advisory audit report. Similarly, DoD Directive 7640.2, paragraph 6.5.1., states, “The
memorandum shall discuss the disposition of all recommendations and questioned
and/or qualified amounts, including the underlying rationale for such dispositions.”

SUPSHIP Groton failed to meet the FAR and DoD Directive requirements because it
did not negotiate the DCAA-questioned costs or obtain an audit opinion on the
DCAA-unresolved costs before establishing the final indirect cost rates for CFYs
1997 through 2001.

Adjustment of Future Indirect Cost Rates. SUPSHIP Groton’s plan to adjust
future indirect cost rates for any DCAA-unresolved or questioned costs that
SUPSHIP Groton disallows is not consistent with several fundamental requirements.

FAR 2.101, Definitions, defines “Indirect cost rate” as “….the percentage or dollar
factor that expresses the ratio of indirect expense incurred in a given period to direct
labor cost, manufacturing cost, or another appropriate base for the same period.”
(emphasis added)

FAR Subpart 9904.406, “Cost Accounting Standard Cost Accounting Period,”
provides criteria for selecting the periods to be used as the cost accounting periods for
estimating accumulating and reporting. It requires that all rates (such as indirect cost




                                      3
     rates) used for estimating, accumulating, and reporting be based on the contractor’s
     cost accounting period. (emphasis added)

     The matching principle is a cornerstone of accrual accounting and generally accepted
     accounting principles. Accrual accounting matches revenues with expenses for a
     particular period using the principle of recording expenses against the revenue they
     helped to generate. GDEB uses the accrual method of accounting to estimate,
     accumulate, and report its costs from operations.

     Impact on the Government. Adjusting future indirect rates for prior year
     disallowed costs may have a significant impact on the Government because the
     Government participation in any disallowed costs fluctuates from year to year. If the
     Government participation-rate decreases, the Government recoups a smaller share of
     the disallowed costs. The Government participation-rate at SUPSHIP Groton
     decreased from 100 percent in 1997 to 91 percent in 2004. Therefore, the
     Government would recoup a lower amount for any 1998 costs that are disallowed
     under the 2004 indirect cost rate than it would have if the costs were disallowed under
     the 1998 indirect cost rate.

     The actions that the contracting officer took to prematurely establish final indirect
     cost rates, pay the unresolved and questioned costs to the contractor, and indefinitely
     postpone the negotiation of those costs, are not in the best interests of the
     Government. The contractor has no incentive to negotiate a settlement on the
     questioned and unresolved costs because it has already received payment for those
     costs. In addition, the negotiation of these costs becomes more difficult as time
     passes because individuals having a detailed understanding of the issues may transfer
     or retire, or the records become lost. Furthermore, SUPSHIP Groton used the MOA
     to circumvent and indefinitely delay the primary responsibility of the contracting
     officer, which is to negotiate a fair and reasonable price on behalf of the Government.

Management Comments and Department of
Defense Inspector General Response to Finding
     Management Comments. The Navy did not concur with this finding. It believes
     that the basis used to establish indirect cost rates for CFY's 1997 through 2001 was in
     the best interest of the Government and did not violate any regulation, directive, or
     statute. The Navy said that SUPSHIP Groton’s actions fall within the requirements of
     FAR 1.102(d) and DoD Directive 7640.2, Part 4.1.

     The Navy believes its practice is consistent with the Defense Contract Management
     Agency (DCMA) “pay-forward” guidance. In addition, the Navy explained that
     establishing the final indirect cost rates in this manner enabled contract closeout and
     was in accordance with DCMA Quick-Closeout Procedures.




                                           4
SUPSHIP Groton considered the impact on the indirect rates as relatively immaterial.
The Navy believes that the practice benefited the Government by resolving over aged
audit issues, moving forward on closing a number of contracts, and retaining the
ability to obtain consideration from the contractor for the $94 million set aside if at a
later date it was determined that the Government was entitled to reimbursement plus
interest.

DoD IG Response. We request that the Navy reconsider its position. FAR 1.102
does not give SUPSHIP Groton the authority to prematurely establish the indirect cost
rates. FAR 1.102(d) states:

       “The role of each member of the Acquisition Team is to exercise personal
       initiative and sound business judgment in providing the best value product or
       service to meet the customer’s needs. In exercising initiative, Government
       members of the Acquisition Team may assume if a specific strategy, practice,
       policy or procedure is in the best interests of the Government and is not
       addressed in the FAR, nor prohibited by law (statute or case law), Executive
       order or other regulation, that the strategy, practice, policy or procedure is a
       permissible exercise of authority.” (Emphasis added)

FAR 1.102(d) gives permission for a practice only if it is not addressed in the FAR or
is not prohibited by law. Because the practice does not comply with several sections
of the FAR and DoD Directive 7640.2, the practice is not a permissible exercise of
authority under FAR 1.102(d). While we determined that the practice violates
FAR 2.101, FAR 42.705-1(b)(4), FAR 42.705-1(b)(5)(iii)(A),
FAR Subpart 9904.406, and DoD Directive 7640.2, the Navy did not include any
specific comments on these reported violations.

Although paragraph 4.1 of DoD Directive 7640.2 recognizes the independent decision
making authority of the contracting officer, the contracting officer must still act
within established rules. DoD Directive 7640.2 reinforces this requirement in
paragraph 4.3., which states “…. the resolution and disposition of all contract audit
reports shall be consistent with legal statutes, regulations, and DoD policy.”
(emphasis added).

The Navy’s comparison of its practice to the DCMA “pay forward” guidance in no
way justifies the premature establishment of indirect rates. We believe that both the
Navy and DCMA “pay forward” practices do not comply with the FAR and DoD
Directive 7640.2. In addition, the comparison is invalid because the Navy practice
involves adjusting future year indirect rates for disallowed costs; whereas the DCMA
“pay forward” technique involves adjusting the current-year indirect rate. The Navy
practice is, however, consistent with another technique that DCMA refers to as “roll
forward.” A DCMA legal counsel opinion specifically recommended against the use
of the “roll forward” technique because it violates many of the same FAR and CAS
standards we have cited. The Navy also needs to recognize that DCMA has never
used either the “pay forward” technique or “roll forward” technique to its knowledge.
Nevertheless, we will also recommend in a separate memorandum that DCMA
modify its procedures to prohibit the use of both techniques.


                                           5
         The Navy’s comparison of its practice for establishing final indirect rates to the
         Quick-Closeout Procedures in FAR 42.708 is also invalid. Indirect rates established
         under quick-closeout procedures can only be used to settle contracts having a
         relatively insignificant amount of indirect costs. However, the final indirect rates that
         SUPSHIP Groton established for 1997 through 2001 are being used by SUPSHIP
         Groton to settle the indirect costs for contracts, regardless of dollar value.

         We vigorously dispute the Navy’s determination that the $94 million in questioned
         and unresolved costs are “minimal and relatively insignificant.” The Navy should
         have recognized that the absolute dollar value of these costs alone is significant.
         Although the Navy calculates an impact per direct labor dollar of between $.01 and
         $.03, this is not a meaningful gauge of materiality or significance relative to the
         indirect rates. An example of a more meaningful measure is to determine whether the
         removal of the costs would cause a change to the indirect rate (In other words, would
         they “move” the rate). Using this measure for CFY 2000, the removal of as little as
         $3,200 will cause a change to the indirect rate. Therefore, the $94 million in
         questioned and unresolved costs are clearly significant to the negotiation of the
         indirect rates.

         We also disagree with the Navy’s claim that the Government has benefited from the
         Navy practice. The MOA between the contractor and the Navy does not identify a
         timeline to negotiate the costs and it does not include a provision entitling the
         Government to collect interest on the portion that the contracting officer eventually
         disallows. Therefore, the contractor is effectively receiving an interest free loan on
         the disallowed costs. Further, the contractor has no incentive to negotiate in good
         faith with the Government because it has already been paid in full for the costs.
         Finally, the practice gives the false impression that the Navy had timely and
         effectively issued final indirect rates and closed affected contracts when in fact it did
         so because it circumvented its responsibility of fully considering and negotiating the
         audit findings.

Recommendation, Management Comments and
DoD IG Response
Recommendation A.                 We recommend that the Supervisor of Shipbuilding,
Conversion and Repair at Groton, Connecticut:

      1. Instruct the contracting officer to discontinue the practice of establishing final
         indirect cost rates without taking final action on DCAA-unresolved and
         questioned costs.

         Management Comments. The Navy did not concur with discontinuing the practice
         of establishing final indirect cost rates without taking final action on DCAA-
         unresolved and questioned costs. It stated that the FAR and applicable directives do


                                               6
   not prohibit this practice. Therefore, the practice is within the contracting officer's
   discretion. Furthermore, this practice results in quantifiable benefits to the
   Government by enabling prompt contract closeout.

   DoD IG Response. We request that the Navy reconsider its position. We maintain
   that the practice does not comply with the various FAR, CAS and DoD Directive
   7640.2 requirements outlined in Finding A of this report. The Navy’s belief that the
   practice complies with DCMA guidance does not justify the use of the practice. Both
   the Navy and DCMA “pay forward” practices do not comply with the FAR and DoD
   Directive 7640.2. In addition, the Navy’s practice of indefinitely delaying its action
   on the most controversial and significant issues makes the job of negotiating a
   reasonable settlement on behalf of the Government even more difficult as time
   passes.

2. Promptly negotiate any unsettled costs covered in the September 30, 2004
   memorandum of agreement for which the contracting officer can take final
   action.

   Management Comments. The Navy concurred with this recommendation. The
   Navy is actively pursuing settlement of the costs under its cognizance. The Navy has
   dispositioned a number of these issues and has established a plan of action to resolve
   the remaining issues under its cognizance.

   DoD IG Response. We request the Navy provide us with a copy of the plan of
   action, including milestones, and a current status of questioned costs that have been
   negotiated and are awaiting negotiation.

3. Implement procedures requiring that contracting officers obtain a legal review
   of any proposed agreements with contractors involving DCAA audit findings
   and recommendations.

   Management Comments. The Navy concurred with this recommendation.

   DoD IG Response. We request the Navy provide anticipated dates for preparing
   and implementing the procedures. We also request that the Navy provide us with a
   draft copy of the procedures prior to implementation.

4. Reinstate the contractor fiscal years 1997 through 2001 incurred cost audits to
   open status in the contract audit follow-up system until the contracting officer
   takes final action on all DCAA-unresolved and questioned costs for each year.

   Management Comments. The Navy did not concur with this recommendation.
   The Navy believes that SUPSHIP Groton appropriately closed the audits in the
   contract audit follow-up system because the actions were proper and consistent with
   FAR and DoD guidance.




                                         7
     DoD IG Response. We request that the Navy reconsider its position. In accordance
     with DoD Directive 7640.2, Paragraphs 6.5.1. and E2.1.7.2., the audits must remain
     in open status until SUPSHIP Groton completes its actions on all unresolved and
     questioned costs. Closing the audits before the contracting officer completes the
     actions prevents SUPSHIP Groton management and DoD IG from effectively
     carrying out its monitoring and reporting responsibilities under DoD Directive
     7640.2.


B. Improper Use of Prior Year Sustention Rates
     The SUPSHIP Groton contracting officer improperly used prior year sustention rates
     as the sole basis for negotiating $1.6 million in DCAA-questioned costs, instead of
     addressing the individual auditor recommendations, as FAR 42.705-1 requires. By
     failing to address the auditor recommendations, the contracting officer did not apply
     penalties or put the contractor on notice for the expressly unallowable costs.

     Applicable Criteria. FAR 31.205, Selected Costs, provides specific criteria for
     determining the allowability of costs on Government contracts. FAR Subpart 42.7
     prescribes the procedures for establishing final indirect cost rates. FAR 42.705-1
     requires contracting officers to develop a negotiation position based on a proper
     consideration of the auditor’s opinion on the allowability of the claimed costs.
     Contracting officers are required to explain why any of the auditor recommendations
     were not followed, and notify the contractor of the individual costs that were
     determined to be unallowable, including the amounts subject to penalties based on
     FAR 42.709 (emphasis added).

     Use of Prior Year Sustention Rates. For CFYs 1997 through 2001, DCAA
     questioned $1.6 million of the contractor’s claimed costs for employee morale,
     consultants, miscellaneous (1999) expenses, and other income and credits. DCAA
     questioned the costs as unallowable on Government contracts based on various
     provisions of FAR 31.205, Selected Costs. The contracting officer sustained
     $373,000 of the $1.6 million in DCAA-questioned costs by applying prior year
     sustention rates to the DCAA-questioned costs. The contracting officer used a 16
     percent sustention rate for the questioned consultant costs, and a 25 percent sustention
     rate for the other questioned costs. The sustention rates are based on the percentage
     of costs that the contracting officer sustained for 1994 and 1995.

     Using prior year sustention rates, the contracting officer did not address the auditor
     recommendations applicable to the indirect cost rates being negotiated, as
     FAR 42.705-1 requires. In addition, there is no indication in the contract file that the
     contracting officer verified that the costs claimed in CFYs 1997 through 2001 were
     comparable with those claimed in 1994 and 1995. The negotiation memorandum also
     does not adequately explain why the contracting officer did not sustain the majority
     of DCAA-questioned costs for CFYs 1997 through 2001. Furthermore, the use of




                                          8
      prior year rates precludes the contracting officer from notifying the contractor of the
      individual costs determined to be unallowable, as FAR 42.705-1(b)(5)(v) requires.

      Assessment of Penalties. The use of prior year sustention rates may affect the
      Government’s ability to collect penalties on expressly unallowable costs. With
      prior year sustention rates, there is no identification of the individual unallowable
      costs subject to penalty. It also prevents the contracting officer from assessing a
      Level 2 (double) penalty as provided in FAR 42.709(a)(2), because the contractor
      must be notified that the costs were unallowable before submitting its indirect cost
      claim.

      DCAA reported that $64,000 of the $1.6 million was expressly unallowable and
      subject to penalties. SUPSHIP Groton did not assess penalties even though the costs
      were clearly unallowable and subject to penalties. Of the $64,000 in costs subject to
      penalty, $24,000 related to lobbying activities, $20,000 related to contributions, and
      $20,000 related to public relations and advertising costs. The negotiation
      memorandum gives no explanation as to why the contracting officer did not assess
      penalties as FAR 42.705-1(b)(5)(iii)(C) requires. Therefore, the Government lost
      $64,000 in penalties and the contracting officer failed to put the contractor on notice
      that it should not claim costs of a similar nature in the future.

Management Comments and Department of
Defense Inspector General Response to Finding
      Management Comments. The Navy did not concur. According to the Navy, the
      contracting officer did not rely solely on prior year sustention rates but rather
      employed various negotiation strategies in settling incurred costs for CFY's 1997
      through 2001 that were appropriate to the cost category and costs being negotiated.

      DoD IG Response. We disagree with the management comments and we request
      that the Navy reconsider its position. While the Navy claims that the contracting
      officer used other strategies, the negotiation memorandum only reflects the use of
      prior year sustention rates to negotiate the $1.6 million in questioned costs. The Navy
      also has not adequately explained why the use of prior year sustention rates was
      appropriate under the circumstances, especially considering that the Government lost
      $64,000 in associated penalties. Analyzing historical sustention rates may provide
      helpful information, but the contracting officer should not use them as a substitute for
      evaluating the individual auditor recommendations.

Recommendation, Management Comments and
DoD IG Response
   Revised Recommendation. We revised recommendation B.1 to clarify our intent of
   the recommendation.


                                            9
Recommendation B.                 We recommend that the Supervisor of Shipbuilding,
Conversion and Repair, Groton, Connecticut:

      1. Direct the contracting officer to discontinue the use of prior year sustention rates
         as the sole basis for negotiating DCAA-questioned costs.

         Management Comments. The Navy did not concur with this recommendation.
         The Navy said that DCMA recognizes the use of prior year sustention rates as an
         appropriate technique for establishing quick-closeout indirect cost rates. SUPSHIP
         Groton used this technique to resolve very limited areas of questioned costs totaling
         $1.6 million.

         DoD IG Response. We request that the Navy reconsider its position. The DCMA
         recognition of prior year sustention rates for determining quick-closeout rates is not
         the same as the SUPSHIP Groton use of prior year sustention rates for establishing
         final indirect rates. Quick-closeout rates can only be used to settle contracts having a
         relatively insignificant amount of indirect costs. In contrast, SUPSHIP Groton is
         using the final indirect rates for 1997 through 2001 to close out all contracts
         regardless of dollar value. In accordance with FAR 42.705-1, the contracting officer
         must address each auditor recommendation when establishing final indirect cost rates.

      2. Establish and document internal controls to help ensure that contracting officers
         develop and document the negotiation position for indirect cost rates that is
         based on adequate consideration of the DCAA-questioned costs, including the
         DCAA-questioned costs subject to penalty.

         Management Comments. The Navy partially concurred with this recommendation.
         The Navy believes this is not an issue of adequate internal controls, but rather one of
         good documentation. SUPSHIP Groton agrees that it is essential that contracting
         officers adequately document the basis for their decisions.

         DoD IG Response. We disagree with the management comment that this is not an
         issue of adequate internal controls. Adequate documentation is an integral part of a
         comprehensive internal control program. SUPSHIP Groton management is
         responsible for implementing effective internal controls which provide reasonable
         assurance that what should happen does happen. Effective internal controls covering
         the preparation and review of negotiation memorandums would have prevented the
         contracting officer from negotiating the questioned costs without adequate
         documentation of each auditor recommendation. Since the Navy agrees that adequate
         documentation is essential, it should also agree to implement the controls necessary to
         ensure that the contract file includes adequate documentation supporting the actions
         on the audit findings.




                                              10
C. Failure to Obtain the Auditor’s Opinion on
   Consultant Costs
      The SUPSHIP contracting officer allowed $2.1 million in DCAA-questioned
      consultant costs without asking DCAA to review or provide its opinion on additional
      information that the contractor gave the contracting officer at negotiations. In
      accordance with FAR 42.705-1(b)(4)(i)(B), the contracting officer should have
      consulted with DCAA as to whether the additional information was sufficient to
      justify allowing the questioned consultant costs.

      Applicable Criteria. FAR 42.705-1 outlines the requirements for establishing final
      indirect cost rates using contracting officer determination. FAR 42.705-1(b) requires
      that the contractor support its indirect cost proposal with adequate supporting data. In
      accordance with FAR 42.705-1(b)(4), the contracting officer is responsible for not
      resolving any questioned costs until obtaining adequate documentation on the costs
      and the contract auditor’s opinion on the allowability of the costs.

      DCAA-Questioned Consultant Costs. For CFYs 1997 through 2001, DCAA
      questioned $2.1 million in consultant costs related to an out-sourced internal audit
      function because the contractor failed to provide adequate supporting documentation.
      In accordance with FAR 31.205-33(f), consultant costs are allowable only when
      supported by evidence of the nature and scope of the service furnished.
      FAR 31.205-33(f) states:

                 “…Evidence necessary to determine that work performed is proper and does
                 not violate law or regulation shall include-
                      (1) Details of all agreements…,
                      (2) Invoices or billings submitted by consultants, including sufficient
                          detail as to the time expended and nature of the actual services
                          provided; and
                      (3) Consultants’ work products and related documents, such as trip
                          reports indicating persons visited and subjects discussed, minutes of
                          meetings, and collateral memoranda and reports.”

      Although the contractor provided DCAA with invoices, it did not provide DCAA
      with the consultant’s work product and agreements needed to determine the nature of
      the work performed and whether it violated any law or regulation. The contractor
      refused to provide DCAA with the needed information despite DCAA’s repeated
      requests for it.

      Contracting Officer’s Action. According to the negotiation memorandum, the
      contracting officer allowed the $2.1 million in consultant costs based on her review of
      additional information provided by the contractor during negotiations, including
      “.…documentation demonstrating that there is in fact an audit plan in place, that
      audits are being conducted and that there are results of audit for the company to use.”
      However, the contracting officer did not consult with DCAA or request that it review


                                               11
         the additional information to determine if it satisfies the FAR 31.205-33(f)
         allowability requirements. In accordance with FAR 42.705-1(b)(4), the contracting
         officer should have obtained the auditor opinion on the allowability of the costs based
         on the additional information.

         The SUPSHIP Groton practice of reviewing and accepting additional contractor
         documentation at negotiations avoids getting the DCAA opinion on the allowability
         of the costs. The contracting officer is allowing the contractor to circumvent the audit
         process if the contracting officer does not consult with DCAA on additional records
         provided at negotiations. DCAA has the authority under the FAR 52.215-2 clause to
         examine contractor records, and the requisite skills and experience to provide an
         opinion on the allowability of claimed costs. FAR 42.705-1(b)(4)(ii) emphasizes the
         need to consult with the auditor and invite them to attend negotiations and other
         meetings involving the determination of the indirect cost rates.

Management Comments and Department of
Defense Inspector General Response to Finding
         Management Comments. The Navy did not concur with this finding. The Navy
         asserts that the contracting officer made all of the additional supporting data available
         to DCAA and as a result, DCAA determined that these costs were in fact reasonable.

         DoD IG Response. We request that the Navy reconsider its position. We disagree
         that the contracting officer made all the additional supporting data available to
         DCAA. This comment is not consistent with the negotiation memorandum which
         states that the contracting officer accepted the costs based on her review of supporting
         records that the contractor failed to provide during the DCAA audit. The negotiation
         memorandum does not reflect that DCAA had reviewed the supporting records or
         determined the costs to be reasonable. In a March 28, 2008 email, DCAA confirmed
         that it had not reviewed the supporting records or changed its audit opinion.



Recommendation, Management Comments and
DoD IG Response
Recommendation C.                 We recommend that the Supervisor of Shipbuilding,
Conversion and Repair, Groton, Connecticut:

      1. Establish and document internal controls to verify that contracting officers are
         obtaining the auditor opinion on the allowability of claimed costs when the
         contractor submits additional documentation during negotiations in accordance
         with FAR 42.705-1(b)(4).




                                              12
      Management Comments. The Navy did not concur with this recommendation.
      The Navy stated that the allowability of costs must represent the contracting officer's
      independent judgment. While that determination is based on the advice of legal,
      technical, and accounting resources, requiring that third parties review every piece of
      information would both inhibit the contracting officer's independence and result in an
      unnecessarily protracted negotiations process.

      DoD IG Response. We request that the Navy reconsider its position. We do not
      agree that obtaining the DCAA advice would have inhibited the contracting officer’s
      independent judgment or protracted the negotiation process. The dollar value of the
      questioned costs alone ($2.1 million) justified a DCAA review of the supporting
      records. Moreover, FAR 42.705-1(b)(4) requires the contracting officer to obtain the
      auditor’s opinion before rendering a final determination on the allowability of the
      costs. In addition, we believe that the contracting officer actions effectively allowed
      the contractor to circumvent the audit process.

   2. Request that the contracting officer invite the auditor to attend negotiations and
      serve as an advisor for determining the contractor’s final indirect cost rates.

      Management Comments. The Navy partially concurs to this recommendation.
      The Navy concurs that inviting the auditor to attend negotiation is useful, and it does
      so when appropriate. However, the determination of final indirect costs remains the
      responsibility of the contracting officer.

      DoD IG Response. The management comments are partially responsive. We
      request that SUPSHIP Groton submit a specific action plan for utilizing DCAA at the
      next indirect rate negotiations. In accordance with FAR 42.705-1(b)(4)(ii), SUPSHIP
      Groton should invite the DCAA auditor to participate in future indirect rate
      negotiations due to the complexity and significance of the DCAA audit findings in
      this area.


D. Inadequate Consideration of Unallocable Costs
      The SUPSHIP contracting officer reimbursed $1.2 million in costs that DCAA
      questioned due to allocability. The contracting officer accepted the costs without
      fully considering the audit recommendation.

      Applicable Criteria. FAR 42.705-1(b)(4)(i)(B) requires that the contracting officer
      obtain the contract auditor opinion on the allowability of the costs.
      FAR 42.705-1(b)(5)(iii)(C) states that the contracting officer is required to document
      on the negotiation memorandum the “reasons why any recommendations of the
      auditor or other Government advisors were not followed.”

      DCAA-Questioned Costs. In the supplemental audit report for CFYs 1997 through
      2001, DCAA reported that $1.2 million of the claimed Booz Allen Hamilton


                                           13
     consultant costs was not allocable to GDEB and therefore unallowable in accordance
     with FAR 31.201-4, Determining Allocability. DCAA determined that the resulting
     questioned costs were allocable to the General Dynamics Marine Group, not to
     GDEB.

     Contracting Officer’s Action. The negotiation memorandum states, “The auditor
     cites FAR 31.205-33 as the basis for questioning the costs….We reviewed this issue
     extensively and find no basis for supporting the amounts questioned by the DCAA.”
     However, DCAA questioned the costs because they were not allocable in accordance
     with FAR 31.201-4, Determining Allocability. The negotiation memorandum fails to
     adequately explain the rationale for not supporting the audit conclusion that the costs
     were unallocable. The contracting officer stated that she may have misunderstood or
     overlooked this DCAA finding in the supplemental report. As a result, SUPSHIP
     Groton paid $1.2 million in costs that may be unallocable and cannot be recouped by
     the Government.

Management Comments and Department of
Defense Inspector General Response to Finding
     Management Comments. The Navy does not concur with the finding. According
     to the Navy, the $1.2 million addressed in Finding D is part of the $2.1 million
     addressed in Finding C. In addition, the Navy points out that DCAA initially
     questioned the costs as unreasonable, but later questioned them as unallocable in a
     revised opinion. The contracting officer received the revised opinion after she had
     reached agreement with the contractor on this issue, but before she executed the final
     indirect rate agreement.

     According to the Navy, the contracting officer could not consider the issue under the
     circumstances. The contracting officer determined that it would be unproductive to
     reopen negotiations because of concerns she had with the DCAA rationale for
     determining the amount of unallocable costs.

     DoD IG Response. We request that the Navy reconsider its position. The
     questioned costs addressed in Finding D are not part of the questioned costs
     addressed in Finding C. Finding D involves $1.2 million in consultant fees that Booz
     Allen billed, whereas Finding C addresses $2.1 million in internal audit fees that
     Arthur Anderson and other firms billed.

     We reject the contracting officer’s view that it would have been unproductive to
     reopen negotiations and potentially recoup $1.2 million in unallocable costs. The
     negotiation memorandum does not document any concerns that the contracting officer
     had with the DCAA rationale for determining the unallocable costs. The contracting
     officer told us that she had simply overlooked these questioned costs during
     negotiations. Assuming the contracting officer had any concerns with the DCAA



                                         14
          findings, she should have discussed them with DCAA and fully explained her
          determination in the negotiation memorandum.

Recommendation, Management Comments and
DoD IG Response
Recommendation D.                    We recommend that the Supervisor of Shipbuilding,
Conversion and Repair, Groton, Connecticut establish a quality assurance process to verify
that contracting officers adequately document their consideration of all Defense Contract
Audit Agency audit findings and recommendations in accordance with FAR Subpart
42.705, Final Indirect Cost Rates.

          Management Comments. The Navy concurred with this recommendation. The
          Navy will remind contracting officers to document the resolution of all DCAA audit
          findings and recommendations in the negotiation memorandum.

          DoD IG Response. The planned action is not responsive. Simply issuing a
          reminder will not provide reasonable assurance that contracting officers are
          adequately documenting their actions. SUPSHIP Groton needs to take more
          substantive actions, such as providing comprehensive training and/or implementing
          procedures to require a review by a level above the contracting officer. We request
          that SUPSHIP Groton evaluate its procedures and training requirements to determine
          the most appropriate quality assurance process for ensuring that SUPSHIP contracting
          officers adequately document their actions.


E. No Action Taken on Questioned Direct Costs
          Revised Finding. As a result of management comments, we no longer take
          exception to the contracting officer actions on $2.1 million of the $2.4 million in
          questioned direct costs discussed below. For additional details, refer to the
          “Management Comments and Department of Defense Inspector General Response to
          Finding” below.

          SUPSHIP Groton took no action on $2.4 million in DCAA-questioned direct costs for
          CFYs 1997, 1998, and 2000, even though it reported in the CAFU system that all
          actions were completed. The contractor will have free use of Government funds until
          the contracting officer settles the questioned costs.

          Applicable Criteria. FAR 42.705-1(b)(5)(iii)(B) requires that the negotiation
          memorandum include a reconciliation of all costs questioned, with identification of
          items and amounts allowed or disallowed in the final settlement.




                                              15
     DCAA-Questioned Costs. For CFYs 1997, 1998, and 2000, DCAA
     questioned $2.4 million in direct costs, including $300,000 in subcontractor travel
     costs and $2.1 million in subcontractor gains on the sale of a building. DCAA
     questioned the travel and subcontractor losses in accordance with FAR 31.205-46,
     Travel Costs, and FAR 31.205-16, Gains and Losses on Disposition or Impairment of
     Depreciable Property or Other Capital Assets.

     Contracting Officer’s Action. SUPSHIP Groton took no action on the questioned
     direct costs, and the negotiation memorandum fails to address the SUPSHIP Groton
     determination of those costs. However, SUPSHIP Groton reported that the actions on
     the audit reports were completed (dispositioned) in accordance with DoD Directive
     7640.2 which requires that “contracting officers take timely and proper actions in
     response to all audit findings.” (emphasis added) The SUPSHIP Groton contracting
     officer stated that she may have overlooked the questioned direct costs during
     negotiations. The failure of the contracting officer to take prompt action on the
     questioned costs allows the contractor to have free use of the Government funds until
     the costs are settled.

Management Comments and Department of
Defense Inspector General Response to Finding
     Management Comments. The Navy did not concur with this finding. The Navy
     claims that DCAA reported $2.4 million in questioned direct costs “for information
     purposes only.” Regarding the $2.1 million portion related to the sale of the building,
     the Navy also said that DCAA later accepted the costs after agreeing with the
     contractor that the building was worthless. Regarding the $300,000 portion in direct
     travel costs, the Navy said that the contracting officer did not negotiate these costs
     because DCAA did not include them in the incurred cost audit reports.

     DoD IG Response. Based on additional information that SUPSHIP Groton
     provided after issuance of our draft report, we agree with the action that the
     contracting officer took on the $2.1 million related to the sale of the building.

     However, we still find that the contracting officer actions on the remaining $300,000
     in questioned directs costs were inadequate. The audit report does not provide any
     indication that DCAA had questioned the costs for “information purposes only.”
     Although the Navy claims otherwise, DCAA did question the costs in the incurred
     cost audit reports for 1997 and 1998. DCAA reported a portion of the questioned
     costs on Page 4 of Audit Report No. 2361-1999R10150001, and the remainder on
     Page 3 of Audit Report No. 2361-1998B1010016. The negotiation memorandum is
     silent with respect to these questioned costs, and SUPSHIP Groton has not provided
     any evidence to support the adequacy of the contracting officer actions or lack
     thereof.




                                          16
Recommendation, Management Comments and
DoD IG Response
      Revised Recommendation. As a result of management comments, we revised
      Recommendations E.1. and E.2., to only address the questioned direct travel costs of
      $300,000.

Recommendation E.                 We recommend that the Supervisor of Shipbuilding,
Conversion and Repair, Groton, Connecticut, instruct the contracting officer to take the
following steps immediately:

      1. Negotiate the questioned direct costs of $300,000.

          Management Comments. The Navy said that SUPSHIP Groton will negotiate the
          $300,000 in direct travel costs as part of its closeout of the applicable contracts.

          DoD IG Response. The Navy’s proposed action is not fully responsive. The
          contractor will have free use of Government funds if the contracting officer delays the
          negotiation of the questioned direct costs until contract completion (which could take
          several years). The contracting officer should promptly negotiate the costs and
          require that the contractor remove the sustained portion of the questioned costs from
          current billings. We request that the Navy provide to the DoD IG documentation that
          confirms the prompt resolution of the questioned costs.

      2. Reinstate the audits with questioned direct travel costs to open status in the
         contract audit follow-up system until the negotiation of the questioned direct
         travel costs is completed and documented in accordance with DoD Directive
         7640.2.

          Management Comments. The Navy did not concur. The contracting officer did
          not report the questioned direct travel costs in the CAFU system because DCAA did
          not include them in the audit reports.

          DoD IG Response. We request that the Navy reconsider its position. DCAA did
          include the questioned direct travel costs in the incurred cost reports. The audits
          should remain open in the contract audit follow-up system until the contracting
          officer negotiates the questioned direct costs. Including the audits in the contract
          audit follow-up system will enable Navy management and the DoD Inspector General
          to monitor the contracting officer actions and report the negotiation results in the
          DoD IG Semiannual Report to Congress, as DoD Directive 7640.2 requires.

      3. Require that the contracting officer include a reconciliation and determination
         of all questioned costs, including questioned direct costs, in the negotiation
         memorandum.



                                              17
     Management Comments. The Navy concurred in principle to this
     recommendation. Inclusion of a reconciliation and determination regarding all
     questioned costs is part of the current process for documenting negotiations.

     DoD IG Response. The Navy comments are responsive. We request that SUPSHIP
     Groton provide the DoD IG with a copy of the negotiation memorandum for the
     lastest negotiated indirect rates to confirm that the contracting officer reconciled the
     questioned costs as part of documenting negotiations.


F. Accuracy of Reported Data
     SUPSHIP Groton did not maintain accurate records of reportable incurred cost audits
     in the CAFU system. As a result, the semiannual CAFU data that SUPSHIP Groton
     reported to the DoD IG for the periods September 30, 2004 through March 31, 2007
     contained several data errors.

     Applicable Criteria. DoD Directive 7640.2 includes the following data accuracy
     requirements:

          •   Paragraph 5.2.5 requires that DoD Components establish procedures for
              maintenance of up-to-date records on all reportable contract audits from
              receipt through disposition; and
          •   Paragraph 6.3 requires that DoD acquisition and contract administration
              organizations maintain accurate and complete information regarding the
              status of reportable audit reports from the time reports are received through
              final disposition.

     Data Errors. Our review of the SUPSHIP Groton reporting of actions on incurred
     cost audit reports disclosed the following errors:

          •   missing records for the two reportable audit reports (Audit Report 2361-
              2002B10100001S1 and 2361-2003B10100001);
          •   inaccurate questioned costs for six of eight audits, resulting in SUPSHIP
              Groton overstating the questioned costs by $27 million (see Appendix B);
          •   inaccurate sustained questioned costs for five of eight audits, resulting in
              SUPSHIP Groton overstating the sustained questioned costs by $3.8 million
              (see Appendix C);
          •   incorrect dates for two audit reports and three audit resolutions
              (see Appendix D); and
          •   incorrect status of actions on six of eight audits (see Appendix E).

     Most of the errors resulted from SUPSHIP Groton failing to verify the accuracy of the
     data entered by DCAA in the CAFU automated system or misunderstanding the
     reporting requirements of DoD Directive 7640.2. Although DCAA provides a
     monthly electronic listing of data on reportable audits, the SUPSHIP Groton


                                          18
         contracting officer is ultimately responsible for data accuracy. The contracting
         officer needs to verify the DCAA-provided questioned costs against the DCAA audit
         reports and make any necessary adjustments.

         Without accurate data, SUPSHIP Groton management, the DoD Inspector General,
         and Congress do not have accurate information on contracting officer actions taken in
         response to contract audit reports.

         Prior Review. DOD IG Report No. D-2004-6-006, “Oversight Review of Naval Sea
         Systems Command Contract Audit Follow-up Process,” July 8, 2004, reported that
         the semiannual reports for periods ending September 30, 2001, and March 31, 2002,
         contained incorrect CAFU information for 29 of the 45 incurred cost audits. Thirteen
         of the 45 incurred cost audits were assigned to SUPSHIP Groton. SUPSHIP Groton
         had incorrectly reported 5 of the 13 audits in its semiannual reporting to the DoD IG.
         SUPSHIP Groton has not demonstrated any significant improvement in the accuracy
         of the CAFU data since the prior review.

Recommendation, Management Comments and
DoD IG Response
Recommendation F.                   We recommend that the Supervisor of Shipbuilding
and Repair, Groton, Connecticut:

      1. Establish quality assurance processes to ensure the accuracy of the data
         reported in the contract audit follow-up system.

         Management Comments. The Navy partially concurred. The Navy agreed that
         there were inaccurate records of reportable incurred cost audits in the CAFU system.
         However, the Navy believes the issue of maintaining accurate records to be indicative
         of the need for additional training, not a quality assurance issue.

         DoD IG Response. The Navy comments are partially responsive. We agree that
         the Navy should provide CAFU training to SUPSHIP Groton acquisition personnel,
         as DoD Directive 7640.2, section 5.2.8, requires. Training is an essential component
         of any quality assurance program. The Navy should also consider other types of
         quality assurances processes that will improve CAFU system data accuracy, such as
         periodic data accuracy checks by the designated CAFU monitor. In its response to
         the final report, we request that the Navy provide its time-phased action plan for
         providing the CAFU training and for considering the need to implement any
         additional quality assurance processes.

      2. Correct the errors in the contract audit follow-up system identified in this
         review.




                                             19
     Management Comments. The Navy concurred and stated that SUPSHIP Groton
     corrected the errors in the contract audit follow-up system.

     DoD IG Response. SUPSHIP Groton only corrected those errors that it agreed to
     during the review. SUPSHIP Groton has yet to make all of the required corrections.
     The CAFU system still includes the following errors:
         • understated questioned cost for audit report 23612004B10100001 (see
            Appendix B);
         • inaccurate audit report date for 2361-1999R10100001S1 (see Appendix D);
            and
         • incorrect status of actions on five of eight audits (see Appendix E).



G. Performance Standards and Controls for
   Contract Audit Follow-Up
     SUPSHIP Groton should set an environment that recognizes the importance of
     adequately and timely resolving and completing the disposition of contract audit
     reports by:

        •   establishing employee performance standards and measures related to CAFU,
            and
        •   including the CAFU function as a regular part of SUPSHIP Groton’s internal
            control review program.

     Such procedures recognize and emphasize the significance of the actions taken on
     contract audit findings and recommendations and the fiduciary responsibility of
     contracting officers.

     Performance Standards and Appraisals. We reviewed the performance standards
     and year-end appraisals of four SUPSHIP Groton contracting officials responsible for
     taking action on DCAA audit reports. None of the standards or appraisals had
     comments that addressed CAFU effectiveness. DoD Directive 7640.2, paragraph
     5.2.4, requires agencies to “ensure that performance appraisals of appropriate
     acquisition officials reflect their effectiveness in the resolution and disposition of
     audit findings and recommendations in a timely manner, while fully protecting the
     Government’s interests.” The number of exceptions we identified demonstrates the
     need for SUPSHIP Groton contracting officers to be held accountable for timely and
     proper resolution and disposition of contract audit reports.

     Internal Controls. Management processes and procedures (internal controls)
     provide reasonable assurance that what needs to happen does happen. Our review
     identified deficiencies with SUPSHIP Groton’s CAFU actions and we have
     recommended that SUPSHIP Groton establish specific procedures to improve its


                                         20
     CAFU process (See findings A through F). Such procedures are consistent with an
     internal control program required by OMB Circular A-123 Revised, “Management’s
     Responsibility for Internal Control,” December 21, 2004, and DoD Instruction
     5010.40, "Managers' Internal Control (MIC) Program Procedures", January 4, 2006.
     DoD Directive 7640.2, paragraph 5.2.3, also requires periodic evaluations of the
     CAFU process.

     OMB Circular A-123 states: “Continuous monitoring and testing should help to
     identify poorly designed or ineffective controls and should be reported upon
     periodically.” OMB Circular A-123 further states:

        “Monitoring the effectiveness of internal control should occur in the
        normal course of business. In addition, periodic reviews,
        reconciliations, or comparisons of data should be included as part of the
        regular assigned duties of personnel. Periodic assessments should be
        integrated as part of management’s continuous monitoring of internal
        control, which should be ingrained in the agency’s operations.”

     SUPSHIP Groton has not performed an internal control review of the CAFU function.
     The lack of management attention and oversight of the CAFU function may have
     contributed to the serious weaknesses in the contract audit resolution and disposition
     program we identified at SUPSHIP Groton. When the CAFU program is
     appropriately identified as a key process, the resolution and disposition of audit issues
     are more visible, they are trackable, and they receive higher priority.

     Prior Review. DoD IG Report No. D-2004-6-006, “Oversight Review of Naval Sea
     Systems Command Contract Audit Follow-up Process,” July 8, 2004, recommended
     that the Commander for Contracts, Naval Sea Systems Command, include the
     contract audit follow-up function as an area of special interest in its “FY 2004
     Procurement Management Review Program,” Although the Naval Sea Systems
     Command agreed to the recommendation, our review disclosed no indication that the
     CAFU process was tested or included as an area of special interest in FY 2004.

Management Comments and Department of
Defense Inspector General Response to Finding
     Management Comments. The Navy concurred in principle. The Navy explained
     that it maintains an environment that recognizes the importance of adequately and
     timely resolving and completing the disposition of contract audit reports. Every
     contracting officer responsible for resolving audits has an evaluation element that
     requires "timely completion of and/or resolution" of audit findings.

     As part of the NAVSEA contracting competency, SUPHIP Groton maintains a robust
     internal control system based on guidance contained in the FAR, DFARS,
     Navy/Marine Corps Acquisition Regulation Supplement, NAVSEA Contracting


                                          21
         Handbook and numerous supplemental regulations and directions from Headquarters
         that provide adequate control of all contracting actions.

         NAVSEA followed up on the DOD IG report issued in 2004 regarding the CAFU
         process through the Procurement Performance Management Assessment Program
         (PPMAP). In its September 2007 review of SUPSHIP Groton, the NAVSEA PPMAP
         team identified the CAFU process as a special interest item that was extensively
         reviewed.

         DoD IG Response. We request that the Navy reconsider its comments. The
         evaluation element that the Navy identifies, actually states “AUDIT FOLLOW UP:
         Acceptable: Ensure positive and timely completion of and/or resolution of MCR, IG,
         GAO, and other findings”. As written, this element does not satisfy the DoD
         Directive 7640.2, paragraph 5.2.4., requirement because the element does not address
         the effectiveness of the contracting official actions related to contract audit follow-up.
         SUPSHIP Groton must hold their contracting officers accountable for contract audit
         follow-up related actions to help prevent similar deficiencies identified in this report
         from occurring in the future.

         During our review, SUPSHIP Groton stated that no internal/management review of
         the CAFU system had been performed in the last 3 years. Although the Navy states
         that it reviewed the CAFU process in September 2007, we have not received
         documentation we requested to confirm the performance of the review or its results.
         We request that the Navy provide the requested documentation in its response to the
         final report.

Recommendation, Management Comments and
DoD IG Response
Recommendation G.                We recommend that the Supervisor of Shipbuilding,
Conversion and Repair Groton, Connecticut, take the following actions:

      1. Revise the performance standards of appropriate acquisition officials to measure
         their performance in resolving and completing the disposition of contract audit
         reports in accordance with paragraph 5.2.4 of DoD Directive 7640.2 and meeting
         established performance measures.

         Management Comments. The Navy did not concur. As discussed above, timely
         resolution of audits is currently in the performance standards of the appropriate
         acquisition officials.

         DoD IG Response. We request that the Navy reconsider its position. The current
         appraisal is not specific enough to satisfy the DoD Directive 7640.2 requirement. To
         satisfy the Directive, the appraisal must evaluate contracting officials on their actions
         regarding contract audit follow-up.


                                              22
2. Perform an internal control review of contract audit follow-up actions in FY
   2008 to ensure compliance with DoD Directive 7640.2.

   Management Comments. The Navy concurred.

3. Make the review of contract audit follow-up actions a regular part of the
   SUPSHIP Groton internal review program.

   Management Comments. The Navy concurred.




                                     23
Appendix A. Scope and Methodology
We evaluated the actions that SUPSHIP Groton took on eight incurred cost audits reported
during the semiannual reporting periods September 30, 2004, through March 31, 2007. In its
semiannual reporting, SUPSHIP Groton reported that the contracting officer completed the
actions on five of the eight audits, and in the process of taking actions on the remaining three
audits. We reviewed the eight audits to determine whether:

       •   CAFU data were accurate;
       •   audit reports were resolved and their disposition completed within the required
           timeframes (6 months for resolution and 12 months for disposition) and, if not,
           whether any delays were justified and documented in the contract file;
       •   contracting officials effectively completed the disposition of all significant audit
           findings and provided sound rationale for not sustaining DCAA-questioned costs;
       •   contracting officials assessed penalties on expressly unallowable costs;
       •   disposition actions were adequately documented in accordance with FAR, DoD
           Directive 7640.2 and SUPSHIP Groton procedures;
       •   contracting officials are evaluated on their effectiveness in resolving and completing
           the disposition of audit findings on time; and
       •   periodic evaluations of the CAFU program are conducted to ascertain CAFU program
           effectiveness.
We performed this review from August 2005 through August 2007. We suspended the project
for 19 months within this timeframe to address other projects.

Use of Computer-Processed Data. SUPSHIP Groton uses a Web-based eTools contract audit
follow-up database to maintain and report the status of contract audit reports. We did not rely on
the computer-processed data generated by the eTools database. We traced the semiannual report
data from the eTools database to source documents.

Prior Coverage. In the last 5 years, we issued one other report to SUPSHIP Groton on the
CAFU process. DoD IG Report No. D-2004-6-006, “Oversight Review of Naval Sea Systems
Command Contract Audit Follow-up Process,” July 8, 2004. We reported several inadequacies
with the CAFU process, including inaccuracies with the SUPSHIP Groton semiannual reporting
of CAFU data. SUPSHIP Groton has not made significant improvements to its CAFU data
accuracy since the prior review.




                                                24
Appendix B. Inaccuracies With Reported
            Questioned Costs
        Revised Appendix B. We revised Appendix B to identify the items that still need to be
        corrected at the time of final report issuance.


                                          Actual
                                        Questioned        Questioned
                                          Cost in           Cost in
                                          DCAA              CAFU*
       Audit Report Number                Report            System      Difference    Note
     23611999R10150001S1                  $3,268,469       $14,207,133 $10,938,664      1
     23611998B10100016S1                   4,975,319         4,058,077   (917,242)      1
     23611999R10100001S1                   3,405,684        14,919,482 11,513,798       1
     23612000R10100001S1                   4,773,332         7,625,104   2,851,772      1
     23612001B10100001S1                   5,329,000         8,382,588   3,053,588      1
     23612004B10100001                     2,617,358         2,633,844       16,486    1,2
         Total                           $28,204,294       $55,661,360 $27,457,066

Note:

1. SUPSHIP Groton reported inaccurate questioned costs in the eTools CAFU system. The
   contracting officer should have compared the amounts in the DCAA audit report with the
   amounts stated in the eTools CAFU system for accuracy.

2. SUPSHIP Groton is still reporting incorrectly the question cost in the eTools CAFU system.

*Contract Audit Follow-up




                                                 25
Appendix C. Inaccuracies With Reported Sustained
            Questioned Costs
         Revised Appendix C. We revised Appendix C to identify the items that still need to be
         corrected at the time of final report issuance.

                                    Actual Sustained       Sustained Cost
                                    Cost According          Reported by
                                     to Negotiation          NAVY in
     Audit Report Number                 Files             CAFU* System      Difference Note
     2361-1999R10150001S1                   $751,066            $3,688,423   $2,937,357  1
     2361-1998B10100016S1                    901,093             1,171,845       270,752 1
     2361-1999R10100001S1                  3,688,243               751,066   (2,937,177) 1
     2361-2000R10100001S1                  1,171,845               901,093     (270,752) 1
     2361-2002B10100001                             0            3,835,132     3,835,132 2
        Total                             $7,457,990           $11,293,302   $3,835,312

Notes:

1. The contracting officer prematurely entered the sustained questioned costs in the incorrect
   years. SUPSHIP Groton corrected the error during our review by removing the sustained
   questioned costs.
2. The contracting officer did not revise the sustained cost in the eTools CAFU system to zero
   when the audit report was superseded or replaced, as required by DoD Directive 7640.2,
   paragraph 6.3.4.2. SUPSHIP Groton corrected the sustained costs during our review.

*Contract Audit Follow-up




                                                  26
Appendix D. Inaccuracies With Reported Dates
         Revised Appendix D. We revised Appendix D to identify the items that still need to be
         corrected at the time of final report issuance.

                                               Report
                                                Date            Resolution
                                              Reported             Date
                                      Actual     in     Actual   Reported
                                      Report   CAFU* Resolution in CAFU*
       Audit Report Number             Date    System    Date     System   Note
      2361-1998B10100016S1                             03/12/04  04/28/04   1
      2361-1999R10100001S1           04/28/04 04/02/04                     2, 5
      2361-2000R10100001             09/25/02 09/25/03                     2, 6
      2361-2002B10100001S1                             03/30/07    N/A     3, 6
      2361-2004B10100001                                 N/A     02/07/07   4

Notes:

1. The audit was resolved one month after the contracting officer reported it as resolved in the
   eTools CAFU system. SUPSHIP Groton corrected this inaccuracy during our review.
2. The CAFU system did not have accurate audit report dates. The contracting officer did not
   verify the date in the eTools CAFU system against the audit report.
3. This reportable audit was not in the eTools CAFU system at the start of our review.
   Therefore, the contracting officer did not report a resolution date for this audit.
4. Although the contracting officer reported the status of Audit Report Number 2361-
   2004B10100001 as resolved, the audit is not resolved. SUPSHIP Groton corrected the
   inaccuracy during our review.
5. SUPSHIP Groton is still reporting the date incorrectly.
6. These date inconsistencies no longer require correction because DCAA issued a
   supplemental audit report that replaced this audit.


*Contract Audit Follow-up




                                                  27
Appendix E. Incorrect Reporting of Status
         Revised Appendix E. We revised Appendix E to identify the items that still need to be
         corrected at the time of final report issuance.


                                           Actual Status     Status Reported in
     Audit Report Number                     of Audit         CAFU* System             Note
  2361-1999R10150001S1                      Unresolved          Dispositioned           1
  2361-1998B10100016S1                      Unresolved          Dispositioned           1
  2361-1999R10100001S1                      Unresolved          Dispositioned           1
  2361-2000R10100001S1                      Unresolved          Dispositioned           1
  2361-2001B10100001S1                      Unresolved          Dispositioned           1
  2361-2004B10100001                        Unresolved            Resolved              2

Notes:

1. SUPSHIP Groton inaccurately reported the status as complete through disposition. However,
   the contracting officer has not developed an action plan for taking final actions on the costs
   included in the memorandum of agreement (see finding A). Therefore, SUPSHIP Groton
   should report these audits as unresolved. SUPSHIP Groton is still reporting the status
   incorrectly.
2. SUPSHIP Groton inaccurately reported the status as resolved when the audit was unresolved.
   SUPSHIP Groton corrected the inaccuracy during our review.


*Contract Audit Follow-up




                                                  28
Appendix F. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy

Department of the Army
Inspector General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
   Director, Program Analysis and Business Transformation
Assistant Secretary of the Navy, (Manpower and Reserve Affairs)
Naval Audit Service
Naval Inspector General
Supervisor of Shipbuilding and Repair, Groton Connecticut

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
   Policy Quality Assurance Division Chief, Policy and Plans Directorate
Director, Defense Contract Management Agency

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
       Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
       Committee on Oversight and Government Reform


                                               29
30
Department of the Navy Comments




                      31
32
33
34
35
36
37
38
39
40
41
42
43
44
45
46
47
48
49
